2311 Douglas Street
Omaha, Nebraska 68102-1214

fT
C@OCKLE

Legal Briefs é
8 Hab i923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

JERIEL EDWARDS,
Petitioner,
v.
STEVEN HARMON ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8965 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of June, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chi,
RENEE J. GOSS 9. ‘.
Notary Public

My Comm. Exp. September 5, 2023

 

Affiant 40822
